<html>
<title> - THE LOCAL ROLE OF THE U.S. PAROLE COMMISSION: INCREASING PUBLIC SAFETY, REDUCING RECIDIVISM, AND USING ALTERNATIVES TO RE-INCARCERATION IN THE DISTRICT OF COLUMBIA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
THE LOCAL ROLE OF THE U.S. PAROLE COMMISSION: INCREASING PUBLIC SAFETY, 
REDUCING RECIDIVISM, AND USING ALTERNATIVES TO RE-INCARCERATION IN THE 
                          DISTRICT OF COLUMBIA

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 3, 2010

                               __________

                           Serial No. 111-68

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
57-977                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4b3a4bb94b7a1a7a0bcb1b8a4fab7bbb9fa">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

               STEPHEN F. LYNCH, Massachusetts, Chairman
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             BRIAN P. BILBRAY, California
ELIJAH E. CUMMINGS, Maryland         ANH ``JOSEPH'' CAO, Louisiana
DENNIS J. KUCINICH, Ohio
WM. LACY CLAY, Missouri
GERALD E. CONNOLLY, Virginia
                     William Miles, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 3, 2010.................................     1
Statement of:
    Eichenlaub, Louis, Mid-Atlantic regional director, Bureau of 
      Prisons; Adrienne Poteat, acting director, Court Services 
      and Offender Supervision Agency; Nancy LaVigne, director, 
      Justice Policy Center, the Urban Institute; Charles M. 
      Reynolds, Jr., CEO, the Fairview Adult Rehabilitative 
      Center; Jeffrey Varone, CEO, Hope Village; and Michael 
      White, former Hope Village resident........................    14
        Eichenlaub, Louis........................................    14
        LaVigne, Nancy...........................................    32
        Poteat, Adrienne.........................................    23
        Reynolds, Charles M., Jr.,...............................    39
        Varone, Jeffrey..........................................    47
        White, Michael...........................................    61
Letters, statements, etc., submitted for the record by:
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah, prepared statement of.......................     5
    Eichenlaub, Louis, Mid-Atlantic regional director, Bureau of 
      Prisons, prepared statement of.............................    16
    LaVigne, Nancy, director, Justice Policy Center, the Urban 
      Institute, prepared statement of...........................    34
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     3
    Norton, Hon. Eleanor Holmes,, a Delegate in Congress from the 
      District of Columbia, prepared statement of................     7
    Poteat, Adrienne, acting director, Court Services and 
      Offender Supervision Agency, prepared statement of.........    25
    Reynolds, Charles M., Jr., CEO, the Fairview Adult 
      Rehabilitative Center, prepared statement of...............    41
    Varone, Jeffrey, CEO, Hope Village, prepared statement of....   050
    White, Michael, former Hope Village resident, prepared 
      statement of...............................................    63


THE LOCAL ROLE OF THE U.S. PAROLE COMMISSION: INCREASING PUBLIC SAFETY, 
REDUCING RECIDIVISM, AND USING ALTERNATIVES TO RE-INCARCERATION IN THE 
                          DISTRICT OF COLUMBIA

                              ----------                              


                      WEDNESDAY, FEBRUARY 3, 2010

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the committee) presiding.
    Present: Representatives Lynch, Norton, Cummings, Kucinich, 
Connolly, Chaffetz, Bilbray, and Cao.
    Staff present: William Miles, staff director; Aisha 
Elkheshin, clerk/legislative assistant; Jill Crissman, 
professional staff; Dan Ziedman, deputy clerk/legislative 
assistant; Howie Denis and Mitch Kominsky, minority counsels; 
and Alex Cooper, minority professional staff.
    Mr. Lynch. Good morning. The Subcommittee on Federal 
Workforce, Postal Service, and the District of Columbia will 
now come to order.
    I want to welcome Ranking Member Chaffetz, members of the 
subcommittee, hearing witnesses and all those in attendance.
    The purpose of today's hearing is to examine the 
effectiveness of residential reentry centers, or halfway 
houses, on public safety prisoner reentry and recidivism in the 
Nation's Capital. The chairman, ranking member and subcommittee 
members will each have 5 minutes to make opening statements, 
and all Members will have 5 days to submit statements for the 
record.
    Ladies and gentlemen, again, let me welcome you to today's 
subcommittee oversight hearing on the utilization and 
effectiveness of Bureau of Prison-sponsored halfway houses in 
the District of Columbia, also commonly referred to as 
community correction centers. Halfway houses play a critical 
role in Federal corrections policy; yet this important phase of 
an ex-offender's road to recovery and reentry often goes 
unregulated. And in the case of the District, at times, under-
used.
    According to the Bureau of Prisons program and policy 
statement on community correction centers, whenever possible, 
eligible inmates are to be released to the community through a 
community correction center [CCC], unless of course there 
exists a reasonable impediment. It is estimated that every 
year, nearly 2,500 ex-offenders return to the District after 
completing their sentences. There is an average of five ex-
offenders per day and with many inmates regularly returning to 
the District, it is imperative that the Bureau of Prisons and 
its halfway house providers are equipped and adequately 
prepared to help these individuals successfully transition from 
confinement to community.
    To that end, today's hearing is intended to ascertain how 
well the Bureau and its partners are doing in meeting that 
objective. Currently, the District is home to three BOP, Bureau 
of Prisons--I will try to reduce the number of acronyms that we 
use during the hearing. But it is unavoidable, apparently. 
Currently, the District is home to three Bureau of Prison-
affiliated halfway houses: Hope Village in ward 8, Efforts From 
Ex-Convicts in ward 2, and Fairview, the District's only 
halfway house for women, in ward 7. And I am glad to have both 
the BOP officials and representatives from each of these 
particular centers here with us this morning to help us get an 
update on the role that halfway house are playing in reducing 
crime and recidivism in the Nation's Capital.
    Since adoption of the Revitalization Act in 1997 and the 
massive restructuring of D.C.'s criminal justice system, both 
the city and the Federal Government have worked diligently and 
collaboratively to increase public safety by implementing sound 
felon reentry systems and practices. Halfway houses serve as an 
instrumental element of this overall approach and therefore 
warrant serious and ongoing oversight.
    I would like to thank the gentlelady from the District of 
Columbia, Hon. Eleanor Holmes Norton, for continuing to place 
an emphasis on prisoner re-integration issues, and for 
recommending today's hearing. I look forward to the testimonies 
of our invited witnesses, and now yield to the ranking member, 
Mr. Chaffetz of Utah, for any opening remarks he may have.
    [The prepared statement of Hon. Stephen F. Lynch follows:]

    [GRAPHIC] [TIFF OMITTED] T7977.001
    
    Mr. Chaffetz. Thank you, Mr. Chairman, and thanks to 
Eleanor Holmes Norton for her work on this and for encouraging 
this hearing to happen. I do support the idea and the notion 
that it is supposed to be the Department of Corrections, and 
that pathway back is an important one and I am glad we are 
diving into that today.
    This particular hearing provides an excellent opportunity 
to discuss the Federal Bureau of Prisons and its relationship 
to halfway houses in the District of Columbia. The Bureau of 
Prisons is vested with the authority to house D.C. code felons 
under the National Capital Revitalization Act. And upon 
release, most convicts are automatically housed in a BOP-based 
halfway house in D.C. under the jurisdiction of the Court 
Services and Offender Supervision Agency [CSOSA]. The National 
Capital Revitalization and Self-Government Improvement Act of 
1977 fundamentally restructured the relationship and the 
responsibilities between the Federal Government and the 
District Government, including its courts, prisons and parole 
supervision. The District's Lorton correction facility in 
Virginia, which had housed D.C. code felons, was closed in 
2001. This resulted in such convicts being placed in various 
Bureaus of Prisons throughout the country.
    CSOSA, which supervises D.C. ex-convicts, is also a Federal 
entity. I would specifically like to learn about how the Bureau 
of Prisons and CSOSA work together to curb recidivism rates. We 
all want ex-offenders to return safely to their communities. 
Halfway houses are critical to the success in this effort. A 
good halfway house can help save lives. They can provide a safe 
place where someone can learn the skills and get the tools they 
need to live in a healthy lifestyle.
    A halfway house is a transitional facility. It is needed to 
ease the difficult task of going back from prison or drug 
recovery straight back into the community. Ex-offenders can 
best succeed if they are sober, employed and have a good place 
to live. Otherwise, they are highly likely to go through the 
revolving door of the criminal justice system, something nobody 
wants to have happen.
    Again, Mr. Chairman, and Eleanor Holmes Norton, I thank you 
both for holding this hearing and insisting that it happen. I 
look forward to hearing from our witnesses.
    I yield back the balance of my time. Thank you, Mr. 
Chairman.
    [The prepared statement of Hon. Jason Chaffetz follows:]

    [GRAPHIC] [TIFF OMITTED] T7977.002
    
    Mr. Lynch. The Chair now recognizes Ms. Eleanor Holmes 
Norton for 5 minutes.
    Ms. Norton. Mr. Chairman, I am going to simply summarize my 
testimony and ask that it be put into the record, only to 
emphasize, Mr. Chairman, first, my sincere appreciation for 
this hearing. There has not been a hearing involving halfway 
houses now for almost 10 years. And yet, these houses are or 
should be critical to reentry.
    I also want to thank you, Mr. Chairman, because we are 
dealing with a fairly complicated agency here. These are local 
D.C. code offenders, yet they are in a Federal prison. And 
CSOSA, the Court Services Offender and Supervision Agency, is 
of course a Federal agency. So it requires some coordination 
and understanding of what is a unique situation in our Federal 
system, where essentially BOP is a State prison for the 
District of Columbia, yet is a Federal agency with Federal 
rules. We are very concerned that the 6,500 D.C. code felons 
are now spread to 75 BOP facilities in 33 States. You can't run 
a State prison system that way.
    And I will be looking, Mr. Chairman, for a solution to that 
problem. We don't understand precisely what the effect of these 
halfway houses is on the most important part of their mission, 
which is reducing recidivism and public safety. I will be 
particularly interested, Mr. Chairman, to learn this morning as 
much as I can about those two issues, and I thank you very much 
again for this hearing.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T7977.003

[GRAPHIC] [TIFF OMITTED] T7977.004

[GRAPHIC] [TIFF OMITTED] T7977.005

[GRAPHIC] [TIFF OMITTED] T7977.006

    Mr. Lynch. Thank you. The Chair now recognizes the 
gentleman from Maryland, Mr. Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman. I take 
great interest in this hearing.
    As a resident of the inner city of Baltimore, and as one 
who used to voluntarily run an after-care program for young men 
who were being released from our juvenile facilities, I take 
tremendous interest in this subject. So therefore, I want to 
thank you for holding this hearing, and I want to thank Ms. 
Norton for all that she has done in regards to these kinds of 
issues and so many others. I have said to many people many 
times that she is one of the finest public servants I know, 
working tirelessly to address so many, many issues of the 
District.
    Ex-offenders need help to make a smooth transition into day 
to day civilian life. Once they make that transition, they have 
the potential to serve as critical resources to our 
communities, acting as mentors to our young people, and working 
to unravel the same criminal network to which they once 
belonged. While the Nation's crime rates have fallen over the 
last decade, there has been an unprecedented explosion in 
prison and jail populations. Upwards of 650,000 men and women 
are released from State and Federal prisons each year, and an 
even larger number of people are being released from our local 
jails.
    In my home town of Baltimore, approximately 700 to 800 
former prisoners are re-entering our neighborhoods from prison 
every month. Unfortunately, we are failing to integrate far too 
many of these returning neighbors into the economic and social 
life of our communities. Nearly two-thirds of released 
prisoners are expected to be re-arrested for a felony or 
serious misdemeanor within 3 years of release. Such high 
recidivism rates translates into thousands of new crimes each 
year, at least half of which can be averted through an improved 
prisoner reentry efforts.
    I might add that it is not, when I return to my district, 
it is not unusual, Mr. Chairman, for me to be approached by 
anywhere from five to six people a day who tell me something 
like this: ``Mr. Cummings, I have just gotten out of prison or 
I have been out for a few months, I simply cannot find a job, 
cannot find opportunity. And if you can't help me, then I am 
going to have to do something.'' And what they mean by that is 
that they are going to have to commit a crime. This is the real 
deal, to survive, that is. And I am certainly not sitting here 
excusing them for that. I just want us to be aware of that.
    These programs have to address the issues of education, 
housing, treatment, training and employment. In these economic 
times, this is very difficult, when you look at it from the 
employment standpoint. When we had our jobs fair just recently, 
Mr. Chairman, we had a number of people who came through. And 
one of their major complaints was that nobody wanted to, the 
people with records, that is, said that nobody wanted to give 
them an interview. And I tried to make them realize that for 
every person who had a record, there were probably 100 who 
didn't have a record who were trying to get the same job. And a 
lot of employers just don't want to hear from anybody who has a 
record.
    So they face a very difficult situation. Reentry programs, 
such as halfway houses or community correction centers produce 
successful outcomes for our communities and our citizens. I am 
proud to have been one of the original co-sponsors of the 
Second Chance Act of 2007, which is now law, that extended the 
amount of time that prisoners can stay in a halfway house from 
6 months to 1 year.
    Today, we examine the unique prisoner reentry program here 
in the District of Columbia. The D.C. code felons are being 
housed in 75 different facilities, located in 33 States, 
meaning that they are not able to visit with social workers, 
clergy, friends, and family, which are crucial in preparing the 
prisoner for reentry into their own community.
    And so Mr. Chairman, as my time runs out, I ask that my 
entire statement be placed in the record, and I look forward to 
the testimony of our witnesses. With that, Mr. Chairman, I 
yield back.
    Mr. Lynch. I thank the gentleman. And without objection, 
his remarks and his statement will be submitted to the record.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Kucinich, for 5 minutes.
    Mr. Kucinich. When we think about crime and punishment, our 
society still doesn't have it right. Because there is no way 
that we can appreciably affect recidivism if we don't make sure 
that when people try to come back and participate in society 
that there is a place for them. We are asking people to do 
something impossible.
    When you look at it in a larger context, Mr. Chairman, I am 
going to have to leave here to go over to a meeting with 
Secretary Salize, who is talking about jobs right now. We have 
15 million Americans without any jobs. And in that market, you 
get released from prison, you try to find a job, it's harder 
than ever. So halfway houses sometimes just leave people 
halfway. And if you want to get the full distance, then a 
society has to be there with an opportunity. We can't keep 
condemning people for going back to prison if we don't have a 
place for them in our society.
    And it is famous, we have one of the largest prison 
populations in the world, per capita, we are one of the highest 
in the world. It is really a commentary on our society.
    I don't know about any of you, but I come from a family in 
Cleveland, OH, that some members of our family had some tough 
times, and some of them did time. And maybe if they had had 
better lawyers, they wouldn't have done time. But they did 
time. And when they came back, it was very tough for them to 
find a way to get back into the system, very tough.
    So I want to thank the people who are involved in this 
effort to try to really give individuals an opportunity to be 
able to rescue their lives. But we have to have solid economic 
components. You just can't be expected to do this on your own. 
It is called a halfway house. You can meet people halfway, but 
our society has to do something about helping people get the 
entire distance.
    I really am grateful for those who have dedicated their 
time and effort to the endeavors in the District. I hope that 
we will be able to address some of the issues of people being 
able to see their loved ones who are incarcerated, sometimes at 
a great distance from the District. Hopefully we will be able 
to do something about some of the issues of oversight of houses 
that are essentially operated by private contractors.
    So I thank you, and thank you, Mr. Chairman. I yield back.
    Mr. Lynch. I thank the gentleman.
    The committee will now hear from today's witnesses, after a 
brief introduction. It is committee policy that all witnesses 
are to be sworn before testifying. So may I ask you to please 
rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Lynch. Let the record reveal that all the witnesses 
have answered in the affirmative.
    Your entire statements will be included in the record. A 
little bit about the ground rules here. You will see a small 
box in front of you. You might want to turn that one around so 
the witness can actually see it. Thank you very much.
    The green light will indicate that you have 5 minutes to 
summarize your statement; the yellow light means you have 1 
minute remaining to sort of wrap up your statement; and the red 
light indicates that your time has expired and you should 
immediately summarize and end your statement.
    I would like to introduce today's panel. Mr. Louis 
Eichenlaub serves as the Mid-Atlantic regional director for the 
Bureau of Prisons. Regional Director Eichenlaub joined the 
Bureau of Prisons in 1986 as a research analyst in the Office 
of Research and Evaluation and Information Policy and Public 
Affairs Division in the Central Office here in Washington, DC.
    Ms. Adrienne Poteat was named as the acting director for 
Court Services and Offender Supervision Agency in July 2008. In 
this position, Ms. Poteat oversees a Federal agency of nearly 
1,300 employees, which was created by the D.C. Revitalization 
Act of 1997 to improve public safety through active community 
supervision for ex-offenders.
    Ms. Nancy LaVigne is the current director of the Justice 
Policy Center at the Urban Institute. Ms. LaVigne is an expert 
on crime prevention and prisoner reentry and is the founding 
director of the U.S. Department of Justice Mapping and Analysis 
for Public Safety program.
    Mr. Charles Reynolds is currently CEO of the Fairview Adult 
Rehabilitative Center, the only all-female community correction 
center in Washington, DC. In addition to the Fairview Center, 
Mr. Reynolds also operates a reentry facility in the Hampton 
Roads area on behalf of Rehabilitation Services, Inc. Both 
sites incorporate state-of-the-art rehabilitation and 
correctional residential services.
    Mr. Jeffrey Varone is CEO of Hope Village, a nationally 
accredited community correction center which has been providing 
offender reentry services since 1977. Mr. Varone has over 25 
years of experience in the field of community corrections and 
in residential reentry programs.
    Mr. Michael White is a third-generation Washingtonian and 
former D.C. code offender. Mr. White was incarcerated at 
Petersburg prison from June 2007 until October 2008. And 
thereafter, he was a resident of Hope Village halfway house 
from October 2008 until January 2009.
    I want to thank all of the witnesses for their willingness 
to come before this subcommittee and help us with our work. Mr. 
Eichenlaub, you are now recognized for 5 minutes for an opening 
statement.

STATEMENTS OF LOUIS EICHENLAUB, MID-ATLANTIC REGIONAL DIRECTOR, 
  BUREAU OF PRISONS; ADRIENNE POTEAT, ACTING DIRECTOR, COURT 
   SERVICES AND OFFENDER SUPERVISION AGENCY; NANCY LaVIGNE, 
 DIRECTOR, JUSTICE POLICY CENTER, THE URBAN INSTITUTE; CHARLES 
   M. REYNOLDS, JR., CEO, THE FAIRVIEW ADULT REHABILITATIVE 
 CENTER; JEFFREY VARONE, CEO, HOPE VILLAGE; AND MICHAEL WHITE, 
                  FORMER HOPE VILLAGE RESIDENT

                 STATEMENT OF LOUIS EICHENLAUB

    Mr. Eichenlaub. Good morning, Chairman Lynch and members of 
the subcommittee. I appreciate the opportunity to appear before 
you today on behalf of Bureau of Prisons Director Lappin to 
discuss the role of residential reentry centers, or halfway 
houses, in the District of Columbia.
    As regional director for the Bureau of Prisons Mid-Atlantic 
Region, I am well aware of the unique role that we play in the 
District of Columbia. While the number of inmates sentenced in 
D.C. Superior Court is relatively small compared to our entire 
inmate population, which is less than 3 percent, we devote 
substantial resources to ensuring they receive appropriate care 
and treatment. And, mindful of the unique relationship between 
the Federal Government and the District of Columbia, as an 
organization we work hard to maintain a variety of 
collaborative relationships with the local criminal justice 
community.
    The mission of our community is to house offenders in 
institutions that are safe, secure, humane, cost-efficient and 
provide opportunities for offenders to prepare for a successful 
return to the community. There are two corollaries to this 
mission. First, offenders come to prison as punishment, not for 
punishment. And reentry begins on the first day of an inmate's 
incarceration.
    In coming into the Federal prison system, District of 
Columbia offenders have available to them a broad variety of 
opportunities for self-improvement. Every Federal prison offers 
inmate programs that stress the development of work skills and 
life skills needed to enhance employment upon release and to 
help inmates maintain a crime-free lifestyle. These programs 
include work, education, vocational training, substance abuse 
treatment, observance of faith and religion, psychological 
services and counseling, release preparation and other programs 
that impart essential life skills.
    Rigorous research has found that inmates who participate in 
programs are less likely to commit future crimes. For example, 
inmates who participate in Federal prison industries are 24 
percent less likely to recidivate and substantially less likely 
to engage in misconduct. Inmates who participate in vocational 
or occupational training are 33 percent less likely to 
recidivate. Inmates who participate in education programs are 
16 percent less likely to recidivate. Inmates who complete the 
BOP's residential substance abuse program, which includes a 
community transition component and is available at the rigorous 
correctional institution, are 16 percent less likely to 
recidivate and 15 percent less likely to relapse to drug use 
within 3 years after release.
    We recognize that as inmates approach release, there are a 
variety of immediate needs to address. Through the release 
preparation program, we provide assistance in resume writing 
and job seeking and retention skills. We have employment 
resource centers at all of our institutions. We offer mock job 
fairs, where inmates learn job interview techniques and 
community recruiters learn of the skills available among 
inmates. During these events, qualified inmates are afforded 
the opportunity to apply for jobs with companies that have job 
openings.
    Finally, our staff helps inmates secure identification, 
apply for benefits, compile education and training 
certificates, diplomas, transcripts and other significant 
documents needed in the community. Community-based programs, or 
halfway houses, complement the Bureau's reentry efforts 
described above. Research has shown that inmates who are 
released through halfway houses are more likely to be employed 
and less likely to recidivate. For this reason, the BOP places 
most inmates in community-based programs for the final portion 
of their term of imprisonment to help offenders gradually re-
adapt to their community environment. Many of the programs and 
treatments that offenders receive in the correctional 
institutions are reinforced during their stay in the community-
based programs.
    Additionally, offenders receive assistance in finding a job 
and a place to live and access to services they may need 
following release. The BOP does not operate any halfway houses. 
Rather, all of them are operated by private providers under 
contract with the BOP. We are committed to ensuring that our 
programs, including halfway houses, buildupon the body of 
knowledge about what is effective in reducing recidivism. For 
halfway houses, these evidence-based practices are articulated 
in our statement of work. Halfway houses must, one, conduct an 
assessment to identify the crime-producing behaviors to target; 
two, develop an individualized case plan based on the 
assessment; three, offer effective interventions; and four, 
implement the program consistently.
    We regularly monitor our contracts for RRC services, 
frequently visiting both Hope Village and Fairview in the 
District. We work closely with the providers, as well as the 
staff from the Court Services and Offender Supervision Agency, 
to refine our operations and those of the providers.
    I look forward to hearing from our partners in the D.C. 
criminal justice community today and to continue to collaborate 
on how best to address the needs of the District and its 
incarcerated population.
    Chairman Lynch, this concludes my formal statement. Again, 
I thank you, Mr. Chaffetz and the subcommittee for your support 
of our agency. I would be pleased to answer any questions you 
or any other members of the subcommittee may have. Thank you.
    [The prepared statement of Mr. Eichenlaub follows:]

    [GRAPHIC] [TIFF OMITTED] T7977.007
    
    [GRAPHIC] [TIFF OMITTED] T7977.008
    
    [GRAPHIC] [TIFF OMITTED] T7977.009
    
    [GRAPHIC] [TIFF OMITTED] T7977.010
    
    [GRAPHIC] [TIFF OMITTED] T7977.011
    
    [GRAPHIC] [TIFF OMITTED] T7977.012
    
    [GRAPHIC] [TIFF OMITTED] T7977.013
    
    Mr. Lynch. Thank you, sir.
    Ms. Poteat, you are now recognized for 5 minutes.

                  STATEMENT OF ADRIENNE POTEAT

    Ms. Poteat. Thank you, Chairman Lynch, Ranking Member 
Chaffetz and members of the subcommittee. Thank you for the 
opportunity to appear today before you and testify on behalf of 
the Court Services and Offender Supervision Agency to discuss 
the role of halfway houses in reducing crime and recidivism in 
the District of Columbia.
    CSOSA was certified as a Federal agency in 2000 and charged 
with the unique responsibility of supervising men and women on 
probation, parole or supervised release in the District of 
Columbia. On any given day, we supervise 16,000 offenders, 
6,000 of whom are on probation, parole or supervised release, 
and have served a period of incarceration in the Federal Bureau 
of Prisons. Each year, approximately 2,400 offenders return to 
the District of Columbia from BOP facilities.
    The demographic profile of the returning offender suggests 
enormous challenges for us. In fiscal year 2009, 44 percent of 
them had a history of violent crime, 70 percent had a history 
of substance abuse, 30 percent had a diagnosed mental health 
illness, and nearly 40 percent did not have a GED or high 
school diploma. These offenders arrived in the District of 
Columbia with an immediate need to find housing and employment 
services, to develop positive social networks and reconnect 
with their families. They also have needs in mental heath and 
medical services.
    The challenge is compounded for offenders released after 
long periods of incarceration in the Bureau of Prisons 
facilities. Sometimes, once they are released, their support 
networks have been dissolved.
    CSOSA created a specialized unit to deal with the offenders 
coming from the Bureau, and that is a Transitional Intervention 
Team [TIPS]. We work solely with the offenders returning from 
prison. The TIPS CSOs begin this transition period 6 months 
prior to the offender returning to the community. They 
investigate home and employment plans prepared by the BOP case 
managers. They ensure that the proposed plans for home and 
employment are successful for reentry into the community and do 
not pose a risk to a prior victim, or in the case of sex 
offenders, children living in the home.
    Offenders who transition through a halfway house undergo a 
comprehensive risk and needs assessment by the TIPS CSOs. This 
includes a substance abuse history, criminal behavior patterns, 
history of violence, educational or vocational deficits, 
physical or mental health challenges. Armed with this 
information, the TIPS CSO develops an individualized plan for 
each offender. During the course of a halfway house stay, an 
offender may be enrolled in Unity Health Care, be referred to 
Goodwill Industries for job placement, receive skills from 
opportunities industrialization centers, and be connected to a 
mentor from an area faith-based program. The offender will also 
be oriented to his supervision requirements.
    Unfortunately, of the 2,400 offenders who will return to 
the District, last year, only 40 percent of them transitioned 
through halfway houses. This average stay for our CSOSA 
offenders was 45 to 60 days. Our experience suggests that a 
longer period of stay may be effective in stabilizing offenders 
during this critical period.
    In general, offenders who experience halfway house 
placements are 20 to 40 percent more likely to find themselves 
in stable employment and housing during their 180 day stay 
period, and some of them are considered to be our riskiest 
population. Employment and housing stability have long been 
associated with greater supervision compliance.
    Research conducted by the Bureau of Justice statistics in 
2002 supports the need for a comprehensive strategy for 
addressing offender needs during the first 180 days after 
release from prison. That study found that the offenders are at 
a greater risk of committing new crimes or serious supervision 
violations prior to being sent back to prison during the first 
6 months in the community. Of the nearly 68 percent of the 
offenders who will be re-arrested within 3 years of their 
release, less than half of them will be arrested during the 
first 180 days. Clearly, this is the most critical intervention 
period to slow down the likelihood of the offender re-
offending.
    Now I would like to just turn your attention to an 
immediate challenge facing CSOSA. We will have approximately 
500 offenders who will be returning to the District based on 
the U.S. Parole Commission in correctly applying parole 
guidelines to these men and women that were D.C. offenders that 
were sentenced during the 1985 time for drug offenses. And it 
was the epidemic of the crack. So therefore, some of them have 
spent more than 10 years in the prison system and will probably 
come home with a lot of challenges that they will be facing at 
that time. Therefore, we will be working very closely with our 
partners to address those needs for those men and women 
returning to the District of Columbia.
    In closing, CSOSA has been collaborating with our criminal 
justice partners, researchers and academics to develop 
strategies to reverse the pattern of recidivism. That 
consistent theme emerging from our shared work is that the 
offender reentry must begin before inmates leave prison, and 
intervention services must be front-loaded. Halfway houses 
accomplish this goal. We look forward to continuing our close 
collaboration with the Bureau of Prisons, our halfway house 
providers, and other local and Federal partners to enhance 
public safety while also reducing recidivism.
    I appreciate the opportunity to appear before you today and 
will be open to any questions that you have. Thank you.
    [The prepared statement of Ms. Poteat follows:]

    [GRAPHIC] [TIFF OMITTED] T7977.014
    
    [GRAPHIC] [TIFF OMITTED] T7977.015
    
    [GRAPHIC] [TIFF OMITTED] T7977.016
    
    [GRAPHIC] [TIFF OMITTED] T7977.017
    
    [GRAPHIC] [TIFF OMITTED] T7977.018
    
    [GRAPHIC] [TIFF OMITTED] T7977.019
    
    [GRAPHIC] [TIFF OMITTED] T7977.020
    
    Mr. Lynch. Thank you, Ms. Poteat.
    Ms. LaVigne, you are now recognized for 5 minutes.

                 STATEMENT OF NANCY G. LAVIGNE

    Ms. LaVigne. Mr. Chairman, members of the subcommittee, 
thank you for the opportunity to speak today about the role of 
halfway houses in transitioning people from prison to the 
community.
    I am director of the Justice Policy Center at the Urban 
Institute. The bulk of our research is on prisoner reentry, and 
for good reason. The successful transition of people returning 
home from prison is critical, not only for them, but for the 
safety and well-being of their families and the communities to 
which they return.
    Yet the path to successful reentry is rarely a smooth one. 
People exiting prison face tremendous challenges to leading 
sober and law-abiding lives on the outside. Few have housing or 
jobs lined up. And many struggle with substance abuse, health 
problems and mental illness. While they may receive treatment, 
training or assistance behind bars, far too often prisoners are 
released without the support and services critical to their 
successful reintegration. Prisoners returning home to the 
District face an additional challenge of having been 
incarcerated sometimes hundreds of miles away from their 
families and potential employers. They return home in need of 
health care, drug treatment, jobs, and importantly, safe and 
affordable shelter.
    That is where halfway houses come in. When designed and 
operated well, halfway houses can serve as a nurturing way 
station, easing what would otherwise be a stark transition from 
the prison environment to the free world. Now, I wish I could 
tell you that halfway houses are a definitive success in 
reducing recidivism. But it is just not that clear-cut. For 
every study that finds that halfway houses are effective, 
another one finds that they have no effect at all.
    Why is that? I think it is because not all halfway houses 
are created equal. Some house only low-risk inmates, while 
others welcome inmates of all risk levels. Some offer a full 
complement of programs and services, while others function 
strictly as work release centers. These variations in 
populations and services are I think what explains the mixed 
findings in the research on their effectiveness.
    In fact, the most definitive evaluation of halfway houses 
suggest that medium and high risk residents are most likely to 
benefit from living in these homes, demonstrating a 
significantly lower likelihood of re-offending than matched 
comparison groups that do not transition through halfway 
houses. What is really interesting is that the same study found 
that low risk residents using halfway houses actually have 
higher rates of recidivism than comparison groups. What this 
means is that housing low risk prisoners in transitional 
facilities takes them out of the environment that makes them 
low risk to begin with.
    Research has also found that the type and quality of 
programs in halfway houses makes a big difference in preventing 
re-offending. Effective halfway house programs have qualified 
who use such evidence-based practices as needs assessments and 
tailored wraparound services.
    So what does this mean for the District? Well, as we know, 
less than half of the prisoners, close, but less than half of 
the prisoners returning to D.C. transition through residential 
reentry centers, D.C.'s term for halfway houses. This raises 
some questions that the committee may seek answers to, and I am 
pleased to observe that some of these questions have already 
been answered in the affirmative by the previous witnesses. 
They include, are the right people housed in the halfway 
houses? Are risk assessment tools used to ensure that medium 
and high risk prisoners, those most likely to benefit, end up 
filling those beds? Do the centers assess the needs of their 
residents? Do they target services to those needs? Do they hire 
and retain well-trained, experienced staff? Do they engage in 
self-evaluation of the quality and effectiveness of their 
programs? These measures will enable the District to yield the 
best possible public safety impact from its halfway houses.
    D.C.'s halfway houses are a scarce but potentially valuable 
resource in improving prisoner reentry, reducing recidivism and 
increasing public safety in the Nation's Capital. I urge this 
committee to ensure that these facilities are used as 
effectively as possible to make the most of their potential for 
successful prisoner reentry and improved public safety.
    Thank you for your time. I welcome any questions you may 
have.
    [The prepared statement of Ms. LaVigne follows:]

    [GRAPHIC] [TIFF OMITTED] T7977.021
    
    [GRAPHIC] [TIFF OMITTED] T7977.022
    
    [GRAPHIC] [TIFF OMITTED] T7977.023
    
    [GRAPHIC] [TIFF OMITTED] T7977.024
    
    [GRAPHIC] [TIFF OMITTED] T7977.025
    
    Mr. Lynch. Thank you, Ms. LaVigne.
    Mr. Reynolds, you are now recognized for 5 minutes.

             STATEMENT OF CHARLES M. REYNOLDS, JR.

    Mr. Reynolds. Mr. Chairman and members of the subcommittee, 
it is an honor to appear before this August body to discuss the 
role halfway houses play in reducing crime and recidivism in 
the Nation's Capital, collaborate on alleviating the problems 
that face returning female citizens and providing what we 
believe are some viable solutions.
    I am especially grateful to Congresswoman Norton for her 
support of community reentry programs in the District of 
Columbia. Thank you, Ms. Norton, for your continued work on 
behalf of those clients whom much of society tends to forget or 
ignore. Your visit to the Fairview on March 30, 2009 was truly 
an inspiration to the residents that we serve and the staff 
that supports your reentry efforts.
    Reynolds and Associates operates a 60-bed residential 
center known as Fairview, located in the District of Columbia, 
the only female facility of its kind, serving returning female 
citizens under the authority of the Federal Bureau of Prisons. 
We serve more than 1,000 returning females annually. This 
testimony focuses specifically upon those clients who are under 
the authority of BOP and housed in the residential, dormitory 
type facility with 24 hour supervision.
    Upon arrival at the Fairview, the residents are assessed 
and then placed into appropriate counseling, educational, 
vocational and job placement programs. As a result of these 
assessments, several issues have been identified. Approximately 
70 percent of the clients have mental health issues. Half of 
that number relies on prescribed medications and roughly 30 
percent suffer from physical ailments, with the most common 
being asthma, allergies, diabetes and hypertension. 
Approximately 30 percent of the clients are either HIV positive 
or have full-blown AIDS, and a significant number of them are 
recovering from some form of substance abuse.
    Approximately 20 percent of the residents are housed with 
family members upon release, who are not always fully prepared 
for the issues that might occur when their loved one comes to 
live with them, after having been gone for so long. 
Unfortunately, too many of our clients are homeless, and many 
of the programs that offer transitional housing have long 
waiting lists, and far too many are released to shelters, 
rather than stable environments that would contribute 
significantly to their successful reentry.
    In the current economy, many highly qualified individuals 
are entering the job market and taking jobs that were 
previously filled by our clients. Therefore, despite the fact 
that Reynolds and Associates, as a full employment placement 
specialist who provides job skills, job readiness training, GED 
and computer skills courses, only about 5 percent of our 
clients are currently employed. When a client is released from 
Fairview, there is no process of tracking their progress and 
provide additional case management services for them.
    A significant number of the BOP residents indicate that 
they would benefit from post-release case management, which 
could assist them in not returning to prison. Some of the 
proposed solutions are, placing a psychologist or psychiatrist 
and a nurse practitioner at the facility and providing 
comprehensive dental care. Providing for enhanced onsite 
substance abuse counseling, in addition to community after-care 
component, to aggressively address their addictive behavior. 
Include family members in more activities to enhance 
communications, especially where their children are involved, 
and custodial concerns are present. Enhance partnerships with 
transitional housing providers to increase housing availability 
for the returning citizens. And a need for more incentives for 
partnerships with local employers, to encourage and reward 
employers that provide job-specific training, so that a 
resident is able to move into a position immediately before and 
after release. Providing some post-release tracking for at 
least 18 months, so that post-release issues could be regularly 
addressed. And establishing a mentoring program that 
collaborates with the case managers to assure that the after-
care needs of the clients are addressed and monitored after 
release.
    In conclusion, I ask that you thoroughly read this 
testimony in order to assess the full impact of the issues on 
returning females to the District. In addition, if additional 
services are mandated and funded to meet the unique needs of 
the female citizens returning to the District, it is our 
sincere belief that recidivism can be significantly reduced and 
that our overwhelming majority of our clients, your 
constituents, can become good, productive citizens.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Reynolds follows:]

    [GRAPHIC] [TIFF OMITTED] T7977.026
    
    [GRAPHIC] [TIFF OMITTED] T7977.027
    
    [GRAPHIC] [TIFF OMITTED] T7977.028
    
    [GRAPHIC] [TIFF OMITTED] T7977.029
    
    [GRAPHIC] [TIFF OMITTED] T7977.030
    
    [GRAPHIC] [TIFF OMITTED] T7977.031
    
    Mr. Lynch. Thank you, Mr. Reynolds.
    Mr. Varone, you are now recognized for 5 minutes.

                  STATEMENT OF JEFFREY VARONE

    Mr. Varone. Good morning, Chairman Lynch and members of the 
subcommittee.
    I am pleased to appear before you today to discuss the 
effectiveness of residential reentry centers, or halfway 
houses, on public safety, prisoner reentry, and recidivism in 
the Nation's Capital. Of course, I will be speaking from 
experience we have garnered over the past 30 years at Hope 
Village, Inc., helping offenders reintegrate into the 
Washington, DC, community.
    Hope Village is a private, adult community correction 
center, also known as a community-based Residential Reentry 
Center, located in southeast Washington, DC. Since 1977, Hope 
Village has provided transitional services to offenders to 
assist their transition and positive reintegration back into 
the Washington, DC, society.
    The Bureau of Prisons awarded Hope Village the first 
private pilot community correctional center program in 1982 to 
house offenders returning to the Washington, DC, area. This 
program became so successful that other similar programs are 
operating in many other areas within the United States. 
Currently, Hope Village has two contracts with the BOP, serving 
offenders reentering the community in the Washington, DC, area 
who are generally referred for placement within 6 months of the 
remainder of their sentence. Both contracts are performance-
based, and for a period of 10 years, which includes a 3-year 
base period and 7 additional award term/option years. We also 
have a contract with the District of Columbia Department of 
Corrections to serve offenders who are pre-trial inmates, 
court-ordered misdemeanor, and sentence misdemeanor inmates.
    Hope Village is the second largest employer in ward 8 of 
the District of Columbia. Hope Village employs 104 dedicated, 
full-time staff to facilitate our program and provide 
comprehensive transition services to offenders. Our staff 
includes a senior operations director, 2 program directors, 35 
Charge of Quarters, 8 case managers, 5 vocational counselors, 2 
certified substance abuse counselors, and 4 social workers. 
Within our facility, we operate separate departments for 
correctional services, training, programs, computer services, 
personnel, facility maintenance and food service.
    Our very low offender recidivism rate is tangible testament 
to the effectiveness of our programs for offender 
reintegration. In 2009, we reported 1,157 positive offender 
releases into the community. Of all the offenders who 
participated in our programs in 2009, only nine persons were 
re-arrested, which is statistically insignificant given the 
total offender population.
    Historically, Hope Village has been a work release program, 
where participating offenders were required to secure 
employment as part of their placement at Hope Village and 
transition into the community. Hope Village has adapted to 
changes in the community and the employment market, and has 
tailored its program to meet the evolving needs and goals of 
program participants. Each week, Hope Village accepts 
approximately 25 to 30 new offenders from various Federal 
prisons to participate in the Hope Village program. Every 
offender is required to complete a 7-day orientation to the 
facility, including an orientation class, assessments for 
medical and mental health issues, a 12-hour mandatory life 
skills program, covering topics relating to substance abuse, 
job readiness, heath awareness, life safety, financial 
management, parenting and computer skills.
    Offenders must complete the orientation program before they 
are allowed any movement outside of the Hope Village premises. 
Offenders are required to attend the orientation class within 
24 hours of their arrival at Hope Village. During this 
orientation, the offender meets with representatives from Hope 
Village, the Bureau of Prisons, and the Court Services and 
Offender Supervision Agency to review the regulations and rules 
of Hope Village that we previously sent to the offender while 
he was at a Federal institution. The representatives are 
available to discuss the rules and procedures and answer any 
questions the offender may have about the program or his time 
at Hope Village. This meeting is critical to ensure offenders 
understand their obligations during their participation in 
program, and the serious consequences of rule violations, which 
includes a recommendation for the return to the Federal 
institution or extended services.
    During the first week of arrival, each offender meets with 
a program review team, consisting of his program director, case 
manager, vocational counselor, social worker, drug treatment 
provider and a CSOSA representative. Our program staff closely 
monitor this individualized plan and review it every 2 weeks to 
assess the offender's progress or lack thereof, and where 
necessary, address implementation of additional strategies to 
meet the offender program goals.
    At Hope Village, we know that employment plays a large part 
of evaluating an offender's self-esteem and a key factor to 
reducing recidivism. As such, we make it our priority and place 
a premium on assisting Federal offenders with their employment 
needs, whether this involves improving their skills by sending 
offenders to specific job training programs, like Project 
Empowerment, or referring them to offsite career centers. Given 
that many of the offenders come to Hope Village after lengthy 
periods of incarceration, they are long disconnected from the 
work force, and some never had a record of employment before 
incarceration.
    Moreover, many offenders do not have basic forms of 
identification, such as a Social Security card, birth 
certificate, driver's license, or even a picture identification 
card.
    Mr. Lynch. Mr. Varone, you have grossly exceeded the 
allotted time. I notice you have a lot more to go there. Could 
you please wrap up and we will move on to the next witness?
    Mr. Varone. Absolutely. I want to talk a little about the 
public safety and accountability. Offenders who are referred to 
Hope Village remain under the supervision of the Attorney 
General. Therefore, we take our direction and enforce our 
guidelines set by the Government. On the facility grounds, we 
account for the residents or inmates every hour, approximately 
every hour. CSOSA is a valuable partner with us. We have, at 
least weekly, the Hope Village staff and CSOSA conduct intake 
and orientation.
    We have found an active engagement with the community plays 
a pivotal role in deterring crime and maintaining public 
safety. For the past 20 years, we have formed a significant 
partnership with the local community to improve the overall 
quality of our life and offenders through support from 
citizens, local elected officials and religious leaders. We 
collaborate with four faith-based organizations, Faith 
Tabernacle, Alan AME Church, Samaritan Ministries and Congress 
Heights United Methodist Church.
    Mr. Lynch. Mr. Varone, I am going to accept your full 
statement into the record. You do not need to read it, sir. 
Will you please sum up?
    Mr. Varone. Sure. In addition, Mr. Chairman, Hope Village 
pledges to continue to work closely and cooperatively with our 
contractors, BOP, D.C. Department of Corrections, CSOSA, and 
the community to deliver quality and meaningful programs and 
services to offenders at the point of reentry, thereby 
fulfilling our mission statement, changes lives.
    Thank you for the opportunity, Mr. Chairman, and members of 
the subcommittee, to provide this statement, and we welcome the 
opportunity to respond to any questions you may have.
    [The prepared statement of Mr. Varone follows:]

    [GRAPHIC] [TIFF OMITTED] T7977.032
    
    [GRAPHIC] [TIFF OMITTED] T7977.033
    
    [GRAPHIC] [TIFF OMITTED] T7977.034
    
    [GRAPHIC] [TIFF OMITTED] T7977.035
    
    [GRAPHIC] [TIFF OMITTED] T7977.036
    
    [GRAPHIC] [TIFF OMITTED] T7977.037
    
    [GRAPHIC] [TIFF OMITTED] T7977.038
    
    [GRAPHIC] [TIFF OMITTED] T7977.039
    
    [GRAPHIC] [TIFF OMITTED] T7977.040
    
    [GRAPHIC] [TIFF OMITTED] T7977.041
    
    [GRAPHIC] [TIFF OMITTED] T7977.042
    
    Mr. Lynch. Thank you, Mr. Varone. Your entire statement 
will be accepted into the record. We appreciate your testimony.
    Welcome, Mr. White. You are now recognized for 5 minutes.

                   STATEMENT OF MICHAEL WHITE

    Mr. White. Thank you. Good morning, Chairman Lynch, 
Congresswoman Norton and other esteemed members of the 
subcommittee.
    I am grateful for this opportunity to speak at this public 
hearing on halfway houses in the District of Columbia. I feel 
that my firsthand experience may be something that a lot of 
times gets swept under the rug, or not get shed good light on. 
So I am glad to be able to offer that today.
    And I also find it fortuitous to be sitting behind Mr. 
Varone, because he was able to shed some light on a few of the 
issues that I will be addressing.
    I arrived at Hope Village on October 7, 2008, after having 
served a sentence at FCC Petersburg in Hopewell, VA. This was 
my first and only stay in a halfway house. And it was my 
expectation that it would be a way for me to transition 
smoothly back into society.
    I was processed fairly quickly after I got there, and 
immediately shuffled to my quarters, a converted two-bedroom 
apartment, which I shared with seven other men. Later in the 
week, I was classified by the appropriate staff and informed of 
their expectations of me, including rules and regulations, the 
set number of in-house classes or life skills courses I would 
have to complete before being able to seek employment or visit 
my family or even receive visitation from my family, money I 
would have to pay from each pay check, and also the appropriate 
channels I would need to navigate in order to begin job hunting 
and what have you.
    It seemed to be a very straightforward program, and I 
assumed that if I followed these things set before me, 
everything would be pretty simple and painless. I fulfilled my 
life skills course hours and was granted a pass of several hour 
to obtain a non-driver's identification card. Shortly 
thereafter, I began seeking employment in various hospitals and 
private health care offices, since that was my background. I 
set up interviews, and after following the appropriate avenues, 
had very little trouble obtaining approval to go to my 
interviews.
    Despite my professionalism, appearance and experience, I 
was turned down several times due to the fact that I am a 
convicted felon. I was finally able to find a private internal 
medicine office in Fairfax, VA, that was willing to look past 
what was on paper and hire me. I explained to them immediately 
in my interview my situation and gave them a few details about 
the circumstances surrounding my incarceration. I explained to 
them that even my start date would ultimately be determined by 
their communication with Ms. Wilson, the job coordinator in my 
particular building.
    I had a very rigid time that I was allowed to leave Hope 
Village, based on a rough calculation by the job coordinator, 
not really factoring in unexplained or unplanned deviations 
from the route, maybe trains shutting down, late buses, missed 
buses, what have you, and being so far away from Hope Village 
and traveling by bus and train and bus again, it was difficult 
to get there on time, and then I had to leave right at the 
moment I was off, with no real room to breathe.
    I was also required to take a drug class at Harbor Lights, 
at the Salvation Army Building on New York Avenue in Northeast, 
which forced me to have to leave 2\1/2\ to 3 hours early from 
work each week in order to make it there in time. And it was a 
hike. I was told by the facilitator that lateness to the 
program would not be tolerated and would subject me to 
injunctions such as loss of the privilege of even being able to 
leave the Hope Village premises, which would automatically 
cause me to lose my job, if I can't go to work. I was in a very 
precarious and uncomfortable position, which I felt was causing 
me to make unreasonable demands on an employer who hired a 
convicted felon.
    When I received my first pay check, I was told that I would 
have to pay a subsistence of 25 percent of my gross pay, which 
would continue until my official release date, even though I 
would not be housed at Hope Village. This was a lot, in my 
opinion, considering that I was in essence starting over from 
ground zero, trying to find housing for myself and my children 
and not to mention the other expenses that are incurred simply 
by virtue of having a family.
    I talked to my counselor, Mr. Tyson, and my case manager at 
Hope Village, and they explained to me that I would be able to 
get my subsistence reduced or even waived if I navigated 
another set of appropriate channels, which I did. And after 
making several payments and inquiries, I was shuffled around 
yet again. I am not going to continue to go into the issues, I 
see my time is winding down.
    I found a lot of the procedures difficult and some contrary 
to one another. It was a tough impediment to me, but I was 
lucky to have a strong support system in my family and great 
community resources. Unfortunately, most people in that 
situation don't have those, and for them it can be very 
frustrating and cause them to lose sight of really what their 
ultimate goal is. But when the policies are enforced correctly 
and on a case by case basis, halfway houses like Hope Village 
are a great benefit and useful to those coming back into 
society who need help making their way. I personally was 
grateful for that opportunity to spend the last leg of my 
incarceration at Hope Village, setting myself up for the rest 
of my life.
    I am proud to report that I have been gainfully employed at 
the same location since my third week at Hope Village, and am 
only a few short weeks away from becoming a licensed realtor. 
So I would like to think that I am one of the successful 1,157 
people that was released from Hope Village in 2009. I look 
forward to continuing in this path. Thank you.
    [The prepared statement of Mr. White follows:]

    [GRAPHIC] [TIFF OMITTED] T7977.043
    
    [GRAPHIC] [TIFF OMITTED] T7977.044
    
    [GRAPHIC] [TIFF OMITTED] T7977.045
    
    Mr. Lynch. Thank you, Mr. White. Good to hear your 
testimony.
    I will begin the questioning. I yield myself 5 minutes.
    I noticed from a lot of the testimony that there is a 
certain overlap between substance abuse and incarceration, and 
in getting people back on their feet, dealing with that 
problem. That is sort of the angle that, look, all the Members 
up here, all the members of this committee, work this issue. We 
deal with the families, with the inmates as well, trying to get 
them closer to home, trying to work out the job situation. It 
is especially difficult right now, as a number of you have 
recognized.
    In my district, we actually confronted this from the 
perspective of an Oxycontin and heroin epidemic in my district. 
What we had to do was, well, what I did was established two 
homes, two transition homes. But our offender group was getting 
so young that we were dealing with adolescents. And you just 
can't co-locate kids with adult offenders.
    So we ended up establishing two homes, like Mr. Reynolds, 
established the Cushing House for Girls, which was a rehab 
facility for girls. Not all ex-offenders, but all with similar 
problems, and one for boys. So I certainly understand what you 
are grappling with. Sometimes it seems overwhelming. 
Fortunately, we do have some employers, and I know you probably 
have your favorites as well. Ironically, I have a brewery, the 
Harpoon Brewery, which is located in my district. And it may 
sound like cruel and unusual punishment to have somebody come 
out of a facility and then go to work at a brewery. But I just 
want to say that they are someone who recognizes, and I tell 
them, this person is coming out of a rehab facility, and we are 
going to try them out and see if we can get that first job to 
build a work history. And God bless them, and I know you all 
have employers that you work with to get people out to work. 
Sometimes that is the biggest hurdle, just getting that sense 
of normalcy out, that first step, that transition, just making 
that connection back to a normal life for some of the folks we 
are trying to help.
    Let me ask a general question of the entire panel. Maybe 
that will be the best use of my time. I want to talk about the 
nexus, and a number of you have mentioned this, about the 
connection between a prisoner's geographical placement and 
their success at reintegration. Mr. White has picked up on this 
in his own personal situation. Time and time again I hear about 
the way folks coming out of the Federal Bureau of Prisons, and 
they are D.C. code offenders, and yet they are placed in 
facilities that are significant distance from their homes and 
that whole support system. So families can't visit them. There 
is a disconnect between that support system.
    Can each of you, as briefly as possible, respond to this 
claim that there is a significant disadvantage or detriment to 
offenders who are coming out and are being located a 
significant distance from their homes and from their families, 
and how does that play on the halfway house situation, what you 
are seeing? Mr. Eichenlaub.
    Mr. Eichenlaub. Thank you. I will say, first of all, we 
have 40, we try and place the offenders, all offenders, 
including D.C. offenders, within 500 miles of their residence. 
We have 40 Federal facilities within 500 miles of the District 
of Columbia. Seventy-five percent of D.C. offenders are in fact 
incarcerated within 500 miles. I recognize that can be a 
substantial drive, even within 500 miles.
    Mr. Lynch. 500 miles is a long--they could be in Boston.
    Mr. Eichenlaub. It can be up to 8 hours. So the majority 
are within 500 miles, perhaps even closer in West Virginia or 
Kentucky. Then a substantial number at the Rivers Correctional 
Institution down in North Carolina, which is much closer. The 
other 25 percent who aren't within that 500 mile radius, the 
standard we try to follow, may have been involved in some type 
of violence or misconduct that resulted in them having to a 
higher security level prison that may be farther away. If they 
need specialized medical or mental health treatment, that may 
take them farther away as well.
    But having spent a number of years working in our 
facilities, I recognize the importance of visiting and 
maintaining relationships with families. It is great to see, in 
our visiting rooms, when those relationships are there.
    Mr. Lynch. Ms. Poteat.
    Ms. Poteat. A large portion of the offenders are at Rivers. 
We find it very beneficial. We have about 700 or so there, and 
we have the opportunity to visit Rivers Correctional Facility 
at least two times a year, and sometimes more, where our case 
managers go down and we can do our preliminary assessments 
there. I know that the families are able to travel there as 
well.
    We also take some of our vendors or support systems down, 
so the offenders have the opportunity to meet some of them 
prior to being released. And we do video conferencing from 
there. We find it is very important to link them to the 
services as well as the families prior to their release to the 
community. In some of our video conferences, we have had the 
family present, as well as our mentors there, so we connect 
them there.
    Mr. Lynch. Thank you. Ms. LaVigne.
    Ms. LaVigne. I can't underscore enough the importance of 
family in successful reentry. At the Urban Institute, we 
conducted a longitudinal study of prisoner reentry in four 
different States. We looked at all kinds of factors that might 
predict the reentry success or failure, including the degree to 
which they had family available to support them, both 
financially and emotionally. What we found was that those who 
indicated that they had strong family support were much more 
successful in staying crime-free, staying off drugs, finding 
jobs and so forth.
    What is important to note in this is that family support 
can be enhanced through increased visitation, more access to 
the prisoners when they are behind bars. I think it also 
relates to some of the research I mentioned in my formal 
statement, where the researchers found that halfway houses were 
not effective for low risk offenders, they were actually more 
detrimental than having them back in with their families and 
communities. I think we heard that as much from Mr. White, that 
as much as there were great services available to him, it also 
created additional barriers to him. I understand from his 
statement that he does have a supportive family.
    So I just want to underscore again, thinking very carefully 
about how you use the scarce resources of halfway houses, 
especially if those house aren't close to where people live, or 
create barriers when they are trying to go to and from their 
jobs.
    Mr. Lynch. Thank you. Mr. Reynolds.
    Mr. Reynolds. Mr. Chairman, when we look at distances in 
the District, the problem is, I think, that for the women, the 
females, females are a bit different from the male population. 
The females are housed at Danbury, CT, Philadelphia, Hazelton, 
PA, Alderson, WV, and Tallahassee, FL. And if you noticed in my 
official presentation, I talked about homeless shelters are 
where these people go. And when you think about it, one of the 
problems and one of the things that we get constantly from our 
females is that they are mothers. They have been away from 
their children for so long, they don't know them. They have to 
regain that confidence. Usually an aunt or grandmother or some 
other individual has taken care of their children.
    It is a very difficult situation. And one of the things is 
that most of these individuals come from very menial positions. 
The families don't have money to travel to these locations to 
be able to visit them, even if they wanted to. So we have a 
very difficult and unique problem, as it relates to that.
    Mr. Lynch. Thank you. Mr. Varone.
    Mr. Varone. Mr. Chairman, I echo some of the same comments 
that my colleagues here at the table have mentioned to you. I 
want to just let you know that we at Hope Village also believe 
that family reunification is very important. We do it, and we 
promote it in a couple of different ways. We promote visitation 
right at the facility several times a week to allow families to 
come in and reunite with their loved ones. We have our social 
workers, there is a requirement in our program that requires 
our social workers to go out and do host visits. So when the 
family, when the offender is going to be releasing to that 
particular house, that they understand what is all involved, 
from both angles.
    We also have a transitional skills and journaling program. 
It is a 9-week mandatory program that we started 3 years ago in 
our program. Those sections, we cover such topics as social 
influences, authority figures, anger and time management, 
creating a safety net. And these residents are allowed, or 
offenders are allowed to write in their journals, so that they 
would be able to then make use of that with their own private 
thoughts.
    Mr. Lynch. Thank you. Mr. White.
    Mr. White. Well, there is, I guess, family visitation, that 
is one of those things where there is a direct correlation 
between the prison and the coming home and possibly 
recidivising, I think. I know I was in a relatively close 
Bureau of Prison place in Hopewell, VA. Many people are much, 
much farther than that. But even to come and see me, whoever it 
might be had to, in essence, wipe out an entire day. They had 
to plan for the 2\1/2\ to 3 hour trip up, spend the time there, 
then the 2\1/2\ to 3 hour drive back, which doesn't leave much, 
even if you had the energy, there probably just wouldn't be the 
time.
    And then once, when it is time to go to the halfway house, 
we are anticipating these visitations, which we only received 
individually 1 hour a week, depending on the building in which 
you stay at Hope Village. And for some, the frustration comes 
if, I know my first home visit was denied, even though I had 
followed the rules, I had found employment and what have you. 
They said, ``oh, well, it is too close to the weekend to be 
able to approve your home visit.'' And that was a very great 
source of frustration to me, because I had already told 
everyone, and everyone had planned to come over to the place 
where I would be staying, to spend the evening, have dinner.
    So Friday afternoon when they told me, ``oh, you are not 
going to be able to go home this weekend,'' I was very 
frustrated. And many other inmates may feel something beyond 
frustration, even anger. I have seen it myself, they come back 
into the quarters, and they are angry, they are cursing. They 
are just angry.
    But family is very important. It is very important. It is 
one of those hot buttons. So for those who have a support 
system, people who are willing to visit them, it really could 
guide them in the right direction.
    Mr. Lynch. Thank you, Mr. White.
    I want to welcome Mr. Cao to the committee.
    Mr. Cao. Thank you very much, Mr. Chairman.
    I have another meeting to go to, so if you don't mind, I 
can just go ahead and ask my question. I represent the Second 
District of Louisiana, which is comprised of New Orleans. There 
is an interest in building a halfway house in an area of New 
Orleans East which was very much devastated by Katrina. The 
people are coming back to rebuild. There is a lack of a police 
force out there in the New Orleans East region. So people are 
somewhat anxious and fearful of having a halfway house in an 
area where there is already a lack of security.
    My question to members of the panel is, what are some of 
the security risks of halfway houses, even though I am pretty 
sure that such institutions are beneficial and necessary? Would 
you recommend that a halfway house be built in an area 
recovering from Katrina and lacking an adequate security force?
    Mr. Lynch. I think those questions are probably good for 
Mr. Eichenlaub and Ms. Poteat.
    Mr. Eichenlaub. We have, as Congresswoman Norton knows, we 
have some difficulty placing halfway house around the community 
here, because people don't want them in their back yard in many 
cases. We try and find a balance between addressing the release 
needs of the offenders against the risk of placing them in the 
community. So we rely heavily on the accountability procedures 
that the residential reentry centers have in place, which 
requires them, under our contract, to have 24 hour a day 
accountability for the inmates. And whether that is at their 
job site or in the actual residential reentry center itself. I 
would leave it at that.
    Mr. Cao. If you can address the question, because I have a 
very specific question, do you recommend that a halfway house 
be built in an area where people are recovering and lack an 
adequate security force to protect the people? I just want a 
direct answer.
    Mr. Eichenlaub. Is that a question for me, for the panel?
    Mr. Reynolds. Mr. Chairman, I would like to respond to 
that.
    Mr. Lynch. Sure, Mr. Reynolds. Take a crack at it.
    Mr. Reynolds. Even though I am with a halfway house, and I 
might get hit over the head, we have facilities that are 
located in upscale communities and those that are in low risk 
areas and high risk areas. I think the key to it is good 
communications with the community, and working with the 
political and economic structure within that area to get them 
comfortable with a halfway house or residential reentry center. 
Whoever the supplier of those services are, we have to go in 
and get them ready. When I say we, the halfway house owners, to 
get the community ready to accept it.
    I just did an opening of a new halfway house in an area 
that was of high risk. And what I did was, I went into the 
area, I met with all of the community leaders, I met with all 
the political officials and everyone that had a stake in what 
is going to happen there. I was successful without having any 
opposition. At that time, there were no halfway house 
regulations that provided for a halfway house to be in that 
location.
    So I think the answer to your question is, you need to be 
able to pull all factions together. Because there is adequate 
security within the halfway house and adequate follow-through. 
You would not know that it is a halfway house, of those 
facilities that I run.
    Mr. Lynch. Thank you. Mr. White.
    Mr. White. In my opinion, the security issue is, I guess 
from my experience, not too much of an issue from the inmate 
perspective. By and large, the people who are residents at the 
halfway houses are already used to a certain regimen, being on 
a short leash through whatever prison they have come. And for 
the most part, everyone is just looking to get through their 
time and get back home. So while there is of course a small 
population of people who, in any halfway house, will break the 
rules, will not come back, for the most part, you don't really 
have to worry about the inmates running amuck in this 
neighborhood. I assume this is the direction you are heading, 
the residents themselves as a security risk. Is that correct?
    Mr. Cao. The residents fear that the halfway house would 
increase crime in an area where there is already lacking 
security.
    Mr. White. And I think that is kind of where I am heading. 
The residents of the halfway house, by and large, are not 
looking to commit crimes while housed in the halfway house. 
They are looking to finish their sentence and go wherever it is 
that they need to go from there.
    Mr. Lynch. Thank you, Mr. White.
    The Chair recognizes Ms. Eleanor Holmes Norton for 5 
minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    Actually, Mr. White's testimony is, in a real sense, sets a 
predicate for some of what I want to ask, enforcement 
authorities. I have found that even when people are very 
troubled, they come to a community meeting and they are dead 
set on something they are angry about, lay out the rules, be 
very transparent with them, they help you enforce the rules. 
What they resent is not knowing how the rules are applied and 
then of course, feeling that they have been unfairly treated. 
And that is really dangerous when you are talking about people 
who have just gotten out of prison. Your own testimony says 
that is when they are most ready to be integrated.
    Here is what I don't understand. Who gets to decide who 
goes to a halfway house and who doesn't? Could I have a 
straightforward answer, Mr. Eichenlaub? Who gets to decide? Is 
it you? And if it is you, what specifically are the criteria 
for deciding who gets it and who doesn't get it?
    Mr. Eichenlaub. Every inmate appears before his or her, 
what we call their unit team, which is comprised of their 
correctional counselor, a case----
    Ms. Norton. No, I am asking you, who gets to decide. Is it 
the BOP? I only have so much time. Does the BOP get to make 
that decision while people are in prison?
    Mr. Eichenlaub. Yes, we make the referral.
    Ms. Norton. Does the BOP have written criteria that I could 
go to tomorrow to say, these are the kinds of inmates that Ms. 
Poteat and the halfway house leaders have to look forward to 
receiving, and what are those criteria? Could you spell them 
out and just list them for me?
    Mr. Eichenlaub. We have a policy that describes that, yes. 
And each case is evaluated on the merits of the individual and 
the needs of the individual.
    Ms. Norton. So--I hope they are. I hope it is 
individualized. But I am looking for at least some baseline 
criterion that would make me understand, high risk, low risk, 
been in jail a long time, like the ones Ms. Poteat talked 
about, just been in jail. I am looking for something other than 
what you just told me, Mr. Eichenlaub.
    Mr. Eichenlaub. Congresswoman Norton, there is nothing 
specific that says, if you have been incarcerated for 20 years, 
you get 180 days, or 12 months. There is nothing specific that 
says if you are incarcerated for this offense, you get this 
period of time. We have the flexibility built into our program 
that enables us to assess the needs of the offender and place 
him or her----
    Ms. Norton. OK, so there are no criteria for deciding. We 
have heard testimony from Ms. LaVigne that low risk offenders 
tend to do better in the community. I would have expected that 
at least that criterion would be one the BOP would use. I am 
troubled by no straightforward general criteria. Everything 
gets tailored. But if there are not general criteria, then I 
have to assume that sometimes there are decisions made which 
may appear not to be fair.
    But let me say to the halfway house leaders, do you get to 
choose or select who gets admission to your halfway house?
    Mr. Reynolds. We receive a dossier on each client that is 
proposed for the halfway house. And we have a right to accept 
or reject, based upon the certain criteria. But we do not 
have----
    Ms. Norton. Based upon what criteria? It is like getting 
admission or to Yale, you get to say thumbs down on some 
people, even though the BOP has said, this is an appropriate 
person to go into the halfway house.
    Mr. Reynolds. No, what happens is in our location, we have 
people who review those particular things to make sure that 
they would fit into the halfway house environment that we run.
    Ms. Norton. What about you, Mr. Varone?
    Mr. Varone. It is the same.
    Ms. Norton. Mr. Chairman, this is, it seems to me, a double 
whammy here. I am concerned about what appear not to be even 
rough criteria for placing people in halfway houses, and then 
wide open selection criteria by the halfway houses. Do these 
halfway houses all have to provide the same core services, Mr. 
Eichenlaub?
    Mr. Eichenlaub. Yes.
    Ms. Norton. So if they all provide the same core services, 
does your contract mandate anything about who gets accepted or 
not? Or is this a wide open selection process like being 
admitted to any private institution?
    Mr. Eichenlaub. The contracts are negotiated based on six 
factors. And within that negotiation, there is some, there can 
be some criteria established for who can and cannot be 
accepted. Aggressive sex offenders, for example, there may be--
--
    Ms. Norton. Mr. Eichenlaub, I am very concerned about what 
seems to be wide open criteria on both ends. But let me give 
you an example. There has been testimony here that one of the 
threshold problems for people getting out of prison is they 
don't even have identification. CSOSA saw that was a problem 
for getting anywhere, and CSOSA apparently worked out a 
situation with the District to get non-drivers i.ds.
    Then the BOP terminated this program. Could you give me any 
reason, if the District of Columbia, a few years ago, non-
drivers were allowed, now we are told they are not?
    Mr. Eichenlaub. I am sorry. I am not familiar with that 
issue, but I would be happy to followup and provide a response 
in writing to the subcommittee.
    Ms. Norton. I would appreciate it if you would.
    I am concerned about Ms. Poteat's testimony, because she 
said that there were 500 additional D.C. felons returning here. 
Now, what she is talking about, of course, are the infamous 
sentencing guidelines. And that, I am not sure that was a 
mistake any of, if you are talking about the felons who are 
going to be coming out and they are Federal felons?
    Ms. Poteat. That is correct.
    Ms. Norton. And indicated that, seemed to indicate there 
would be some difficulty in receiving such a large number. Mr. 
Eichenlaub, are those felons coming, do you know how those 
felons are coming to the District of Columbia? Are they coming 
in large numbers? Are they coming in small trickles? Have you 
been in touch with CSOSA about how you will indeed handle these 
felons? Have you been in touch with the halfway houses about 
how these felons will be matriculated back into civil society?
    Mr. Eichenlaub. We have dealt with circumstances such as 
this in the past when Federal laws have applied retroactively, 
and resulted in offenders being released. I am confident that 
with our relationship with CSOSA and the halfway house 
providers we can accommodate that.
    Ms. Norton. Mr. Poteat's testimony--I know I am at the end 
of my time--she indicated, she raised the issue herself and 
indicated concern about so many folks. Now, you could alleviate 
that concern, for example, if you could tell us, yes, they are 
coming back but they are not coming back all at one time, or 
they will be coming back in small numbers. Can you tell us 
anything about these felons who will be coming back to the 
District of Columbia in larger numbers than usually come back 
in the form of D.C. code offenders?
    Mr. Eichenlaub. The rate at which they come out will be 
dependent upon the conditions and the release procedures that 
the parole commission establishes for them. So I couldn't say 
when they are coming. Past experience suggests they are 
staggered when they come out, and I am confident we can 
accommodate that with, again, in collaboration with our 
partners here.
    Ms. Norton. I know my time is up, Mr. Chairman.
    Mr. Lynch. OK, thank you.
    Ms. Poteat. Excuse me, Congresswoman Norton, I would like 
to clarify something for the record, in regard to the non-
drivers identifications. There was a contract that we had with 
the city, but DMV is the one that terminated that, and BOP will 
need to go back and negotiate it.
    Ms. Norton. Why did they terminate the contract?
    Ms. Poteat. They said that because they are Federal 
prisoners in a halfway house, they would not allow them to get 
the non-District driver's license. But I have spoken with the 
Director of Bureau of Prisons, and he said that he would do a 
memorandum of understanding with the District and possibly 
piggyback on ours so that they can do that.
    Ms. Norton. Mr. Chairman, I just want to say, memoranda of 
understanding have often kept the BOP from simply doing what is 
necessary to do. If all it took was a memorandum of 
understanding, I don't know why it would not have been 
considered a very urgent matter not to have any cessation in 
getting the i.d.'s to people just getting out of prison.
    Thank you, Mr. Chairman.
    Mr. Lynch. I would simply, on that matter, with the 
driver's licenses, I would just ask that be a three-way 
conversation between this committee and the Bureau of Prisons 
and the DMV to make sure that it is addressed in an expeditious 
manner. We can't leave this out there. OK? So we can sort of 
close that loop. And if it is a memorandum of understanding 
that gets it accomplished, then we will work that. It sounds 
like there may be a need for some regulatory refinement or 
legislation with respect to the standards that are employed in 
terms of reentry. I understand the situation as you mentioned, 
the circumstances with an aggressive sex offender. That matter 
must be treated, distinguished. However, that is one outlier. 
The standards for everyone else are still fairly vague, as 
Congresswoman Norton has noted.
    The Chair recognizes Mr. Connolly for 5 minutes--I am 
sorry, I am out of order. The Chair recognizes Mr. Chaffetz for 
5 minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    Thank you all for being here. I truly do appreciate it. I 
particularly want to thank Mr. White for your composure and 
your courage for being here. I am sure a few years ago if 
somebody had suggested to you that you were going to be 
testifying before Congress, you would have said, yeah, right, 
and the New Orleans Saints are going to be in the Super Bowl, 
too. [Laughter.]
    I applaud you both. I really do appreciate it. I am sure we 
can hear about all the positive attributes from all the other 
members on the panel, not to take away anything from them. But 
in the few minute that I do have, what I would really like to 
hear from your heart, and as candidly as you can, offer some 
suggestions and perspectives, in somewhat of a critical way, 
but in a constructive criticism, if you would, of things that 
you think should happen or things that weren't quite flowing as 
well as you could, all in the spirit of trying to make it 
better, because I think that is what we are all here to help 
do.
    So can you share that, your personal perspective on what 
yourself went through, but maybe others went through as well, 
and things that can be done to improve the system?
    Mr. White. Thank you. Well, unfortunately, there is no 
quick fix, no band-aid for this. It is a very difficult thing 
to do. In my experience, I think that everything should be 
taken on a case by case basis. And just based on the numbers of 
people coming out, and I guess the ratio of staff to resident 
or staff to inmate, depending on how you want to say it, it is 
just not that easy. But change is never easy, especially when 
you are really trying to shift, really make an overhaul of a 
situation and curb recidivism at a significant rate.
    Mr. Chaffetz. If you could do one thing, what would be the 
No. 1 thing you would like to see done?
    Mr. White. The No. 1 thing that I would see done is just to 
simply have it seem that the halfway house system cares.
    Mr. Chaffetz. Tell me about the flexibility here. Because 
here you go and you find a job. And I recognize the need to go 
through the drug, I don't know if that was counseling or 
testing or whatever it might be, but you have to leave work 
early. You finally got a job, you got an employer who is 
gracious enough to, in a very tough economy, to hire somebody. 
Expand a little more about that experience and what should be 
done in that way to help the employer, help you, and also do 
the training and things that they need to do.
    Mr. White. One thing that was of concern for me was that 
they didn't offer these programs over the weekend, when I 
didn't necessarily have to work. Of course, that would cut into 
my home visit time, but they are required programs. And at 
least I would have that option, it would either cut into my 
work, which as I said, my employer, they look the other way, 
but like I say, you have to leave early twice a week, this 
early. Or I could take this 1\1/2\ hours to 2 hours during my 
weekend. I would have that option. I would opt to take it over 
the weekend, because I need my job. At some point, I will be 
going home for good. So I wouldn't mind cutting into those 
visitations a little bit, even though they were important to 
me.
    But that was an issue with that. And as I said, they give 
you a set limit of time from destination, from point of origin 
to destination, from halfway house to work, and from work to 
halfway house. Working in Fairfax, I had to take a bus and then 
a series of trains and then another bus each way. So it didn't 
allow for any missing of buses or missing of trains. My bus 
came about 10 minutes after I was due to be off work. So I 
really had to run four or five blocks to the bus to make it, 
because it only ran every 45 minutes in that area of Fairfax. 
So a little more flexibility in the time. As I said, based on a 
case by case, you just can't lump everyone into one box. We all 
have different needs. And they need to be met.
    Mr. Chaffetz. I would just suggest, if you have any other 
thoughts or anecdotes or any other suggestions along the way, I 
appreciate your being here, but if at some point you do have 
other suggestions, if you would submit those to this committee, 
they would be invaluable. I appreciate your perspective. I wish 
you nothing but the best, and thank you very much for being 
here. I yield back the balance of my time, Mr. Chairman.
    Mr. Lynch. Thank you.
    The Chair recognizes Mr. Connolly for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Thank you to the panelists for participating, and 
especially you, Mr. White. I thank you for your courage in 
sharing your story, and I am proud of the fact that my home 
county, Fairfax County, is a place willing to invest in you and 
others. I pray and hope you will stay in the righteous path.
    Mr. Eichenlaub, picking up where Delegate Eleanor Holmes 
Norton left off, did I understand you in response to 
Representative Norton to say that there are no criteria by BOP 
in terms of who goes into a halfway house?
    Mr. Eichenlaub. Let me clarify that if I may.
    Mr. Connolly. I am going to ask you to pull that mic 
closer, because I cannot hear you.
    Mr. Eichenlaub. There are some criteria. For example, if an 
offender has pending charges or detainers, they can't go to a 
halfway house.
    Mr. Connolly. Those are criteria for not going.
    Mr. Eichenlaub. Right.
    Mr. Connolly. What are the criteria for screening people 
and saying, here is a good candidate for rehabilitation and the 
avoidance of recidivism?
    Mr. Eichenlaub. That is correct, and I would respectfully--
--
    Mr. Connolly. What is correct?
    Mr. Eichenlaub. That is correct that there are no specific 
criteria that says, if you are this type of offender, this is 
what you get.
    Mr. Connolly. That is amazing. There are no criteria for 
who goes into a halfway house? So you are just rolling the 
dice?
    Mr. Eichenlaub. I would respectfully submit that our policy 
enables us to do the kind of thing that Mr. White is 
suggesting, which is each offender is evaluated on a case by 
case basis, to make an assessment as to what his or her 
specific needs are and then we place them based on what their 
needs are.
    Mr. Connolly. If I understood Ms. LaVigne's testimony, and 
correct me if I am wrong, Ms. LaVigne, you indicated that 
individuals who were deemed medium and high risk actually 
derive the greatest benefit from halfway house participation. 
And let me ask Mr. Eichenlaub and Ms. Poteat, that seems 
counter-intuitive.
    What would you comment? I think for the average citizen, 
the person at lowest risk would be the best candidate for 
going, not a violent crime or whatever it may be, that is the 
person who is probably going to benefit the most from a halfway 
house and have the highest chance of success of reintegration. 
And yet, if I understood Ms. LaVigne, not necessarily. And by 
the way, that is a heartening thing to hear, but I am just 
wondering if you would comment a little bit. Because I think 
for the average citizen, including myself, that seems a little 
counter-intuitive.
    Ms. Poteat. Yes. I continue to say it would be your high 
risk offenders, for instance, someone who has spent significant 
period of time in prison, someone that has nowhere to live 
because the family ties have been broken. Someone without 
employable skills, did not take the benefit of the service in 
the prison system, and is coming out unemployable. Someone that 
lacks financial support and family support. Someone that is, 
has a violent crime, you may want to put them in the halfway 
house for a gradual transition before they are going out into 
the community.
    And then we can have a time to assess and determine and 
link them up with their services before they are actually sent 
home. Oftentimes these men may, I am speaking particularly to 
the men right now, may be coming out, and they have burned 
their bridges. And their families even have moved. So there is 
nowhere for them to live in the District of Columbia. Then we 
have to put them in a shelter or find alternative housing, 
whether it is transitional housing and so forth.
    So it gives us adequate time to link them up and better 
prepare them to a positive reintegration into the community 
before just coming right out.
    Mr. Eichenlaub. I agree.
    Mr. Connolly. One of the things that bothers me, we closed 
the Lorton prison, an absolutely correct thing to do. However, 
there were understandings at the time that efforts would be 
made to try to make sure that inmates from that prison and 
future visitors to that facility would be housed relatively 
close to the District of Columbia, for all the right reasons, 
in terms of family visits and so forth. But as a matter of 
fact, D.C. prisoners are now scattered on, as I understand it, 
as many as 33 States?
    Mr. Eichenlaub. I don't know that number specifically, but 
that is feasible.
    Mr. Connolly. Is that good public policy, from your point 
of view, Mr. Eichenlaub?
    Mr. Eichenlaub. We try to keep them as close to home as 
possible. Many are in Rivers Correctional Institution in North 
Carolina, our correctional institutions in western Maryland and 
Virginia. So the majority, I think, are actually closer than 
that.
    Mr. Connolly. Well, what would be the reason why somebody 
would be many hundreds of miles away?
    Mr. Eichenlaub. If they need specialized medical or mental 
health treatment, they could go to one of our medical 
facilities where they get that treatment. If they have been in 
a fight with another individual from whom they need to be 
separated, that may result in them traveling farther away. If 
they have been disruptive, and we don't have a facility that is 
appropriate for their level of supervision that is necessary. 
That may result in them going farther away.
    Mr. Connolly. Is it also a capacity problem?
    Mr. Eichenlaub. That space is tight.
    Mr. Connolly. Mr. Chairman, I can't tell whether I have any 
time left or not.
    Mr. Lynch. You don't.
    Mr. Connolly. I thank the chairman.
    Mr. Lynch. That is quite all right.
    Mr. Varone, I wanted to ask you, you have a commendable 
record, especially over the last year, couple of years. And the 
re-arrest record, post-release. I was just trying to drill down 
on some of that data. How many of the folks that you are 
talking about, there were like 1,157 people that you had come 
in and go through Hope Village, and only 9 of them were re-
arrested in the following 6 months after release, how many of 
those folks are the Bureau of Prisons folks?
    Mr. Varone. I am not, at this point, Mr. Chairman, able to 
give you that information. I can research that.
    Mr. Lynch. OK.
    Mr. Varone. But I believe that most, if not all of them, 
were BOP.
    Mr. Lynch. Really? That is a commendable record. I am just 
trying to figure out if we can replicate some of the things 
that you are doing over there. You mentioned the 7-day 
orientation, when people come in, you spend a lot of time 
figuring out what the nature of their needs are. Maybe, and you 
can explain this, maybe you are finding out what they need in a 
more thorough fashion, and by addressing those specific needs, 
maybe that is paying off on the other end, so that the time 
they spend with you is more meaningful.
    Do you have any thoughts about that? What is the magic of 
your, well, it is not magic, it is hard work, but what is the 
key component of your success? I deal a lot with the recovery 
and rehab community. And those numbers are stunning. But what 
do you think are the, I mean, all of you are doing wonderful 
work, don't get me wrong. But I just think that is a remarkable 
outcome that you are achieving there.
    Mr. Varone. Thank you, Mr. Chairman. My only direct answer 
to you is, commitment and dedication to helping people. Because 
at the end of the day, we are all citizens of the United States 
of America. We live in the greatest country in the world. And 
when an individual commits a crime, they serve their sentence, 
they are coming back, they are coming back to our communities. 
So we have to figure out ways to help that individual make a 
good transition, so that they are and they do become productive 
members of society, like you and I.
    I believe that we have taken our job, we take it very 
seriously. We look at assessing this individual, from a day to 
day standpoint, we put them in a position to be successful. 
That is not always the case with all individuals. Some 
individuals come to us with agendas already formulated. So I 
believe that for those individuals that want to do a good job, 
want to take the program seriously, want to become a better 
productive member of society, open up to our case managers and 
our specialized people that we have on staff, and the 
partnerships that we formulate in the community, I think when 
you encompass all that, you put out a good product.
    Mr. Lynch. Thank you. Mr. Reynolds, having been involved 
with programs and actually established a home to help women 
making that transition, as you mentioned in your initial 
testimony, a lot of these folks coming out, the females, are 
moms. And that creates a dynamic that is sometimes very 
difficult to address, especially when there is a distance here 
between their homes and where they are at a halfway house.
    What do you think are the most important changes that we 
might make in order to achieve better outcomes for the women 
that we are trying to serve?
    Mr. Reynolds. I think the first thing that we have to look 
at, Mr. Chairman, is the length of time that the females spend 
within the facility. Also to make sure that we have the 
wraparound services that are needed right at the facility. I 
will give you an example, and probably God made this happen and 
you asked the right question, this morning we were at the 
facility about 7:30. A young lady came stumping up the steps 
and passed me, and I asked her to stop for a second. I asked 
her about four or five times, she wouldn't stop, she continued. 
Then I went downstairs and I stood with her and talked with 
her. She wouldn't acknowledge me at all for about 5 minutes.
    Finally, I got through to her. And one of her problems was 
anger, anger within herself. We have a lot of that. And we have 
a relationship with the mother to the children, they have been 
divorced from the children. They still have a desire to be with 
the male. So there is a lot of complications that we need to 
deal with. And we need someone like a psychiatrist or 
psychologist right onsite to be able to help them deal with 
those issues immediately. That would be some of the things that 
I would look at, and then the after-tracking.
    Mr. Lynch. That is great. Thank you.
    Ms. Holmes Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    The chairman has spoken about some of the statistics that 
were in the testimony. You yourself, Ms. LaVigne, testified 
that halfway houses appear to have quite different effects. In 
your view, do halfway houses make a difference? Does it matter 
to matriculate people through a halfway house?
    Ms. LaVigne. I think they can make a difference. Not to 
beat a dead horse, but this whole issue of risk level I think 
is a really important one. Mr. Connolly asked about the low 
risk offenders, and how come they weren't getting any benefit 
out of the halfway houses. Well, it is by definition of the 
fact that they are already low risk. So you are putting people 
in places where they don't need to be, because they already 
have good odds of being successful.
    Ms. Norton. Well, you testified, and it was very important 
to hear this testimony, because Mr. Connolly was right, perhaps 
for lay people like ourselves, it is counter-intuitive. I 
understand that, but I am not sure BOP does. Because BOP did 
not testify that it is using those criteria. In fact, could I 
ask you, and I ask this very respectfully, Mr. Eichenlaub, I 
have been impressed with the use of best practices within the 
BOP. Do you use best practices when it comes to halfway houses? 
I don't hear the metrics. I don't hear the criteria. So it is 
hard for the committee to know how we should evaluate halfway 
houses.
    So I must ask you, how do you evaluate halfway houses? How 
would you rate these halfway houses? And on what metric are you 
basing that evaluation? And do you tell them how you have 
evaluated them and what they need to do to improve or what they 
have done that is best?
    Mr. Eichenlaub. Thank you. We absolutely do that. At the 
time that we establish the contract with these organizations, 
as I mentioned previously, we have six factors on which they 
are evaluated: accountability, programs, community relations, 
site validity and suitability, safety issues, life safety 
issues, personnel and communications. Those are the criteria on 
which we evaluate these organizations. We audit those 
regularly, three times a year. Then a comprehensive evaluation 
once a year.
    Ms. Norton. Could I ask the halfway house leaders here, 
given the testimony of Mr. White, testimony reinforced by work 
the committee did in trying to, in visiting the halfway houses 
and trying to get witnesses, could you commit to this committee 
that some of the rigidity that Mr. White testified to, for 
example, when an inmate has a job, or is willing on the weekend 
to in fact do what would otherwise be required to do during job 
time, would you be willing to commit to a second look at some 
of the rigidities that apparently are to be found in halfway 
houses in light of particularly the job situation, and how 
frustrated an inmate can be when, yes, surrounded by rules, but 
rules that keep him from contact with his family or keep him 
from in fact getting the kind of job record that we all believe 
is necessary? Are you willing to look at your own procedures to 
make sure those rigidities are not simply built in?
    Mr. Varone. Absolutely, Congresswoman Norton. In order to 
be a better program, in order to be a better organization, you 
have to continually look at those types of things. If I may, 
just to go into a little bit of detail, the privatization part 
of this business is such that if you don't do well, you are not 
going to be in business. It is just the way the Federal 
Government works.
    Ms. Norton. I understand that. But I also understand, look, 
let's be clear. We can't get halfway houses in other 
communities in the District, as badly as we need them. 
Therefore, BOP is going to have to do the best job it can in 
order to make sure you do the best job you can. This is not 
like the ordinary contract, and you know it. The fees, I was 
curious about fees. I understand the personal responsibility 
associated with the rules. And for that matter, with the fees. 
But Mr. White testified that he had to pay a fee for living 
there, even until his release date, even if he wasn't living 
there. Would you clarify that for me, please, how that could 
possibly be the case?
    Mr. Varone. I believe the fee that Mr. White is referring 
to is the subsistence fee that the Bureau of Prisons requires 
all Federal inmates to pay for a portion of their cost of care.
    Ms. Norton. Well, maybe Mr. White should clarify. Mr. 
White, were you saying you were no longer living or eating or 
receiving subsistence from the halfway house, but were required 
to pay, what is it, 25 percent, or whatever is the amount? And 
by the way, who sets that amount? Go ahead, Mr. White.
    Mr. White. Yes, that was correct. Even when I went to 
finish the rest of my halfway house time living at home, I 
wasn't receiving any services from the halfway house, but I was 
still required to pay.
    Ms. Norton. Well, you are going to have to explain that to 
me, to make me understand that, given how few resources these 
ex-offenders have. Could you explain that? You were living at, 
I guess, Hope Village. So let me ask you to explain it, Mr. 
Varone.
    Mr. Varone. Again, Congresswoman, we take our direction 
from the Bureau of Prisons.
    Ms. Norton. OK, now, the buck has been passed to you, Mr. 
Eichenlaub. So catch it here. Why would an ex-offender who had 
a family, good enough to feed him while he is looking for a 
job, to help him with his subsistence, be paying money to a 
private contractor who is providing nothing toward his 
subsistence? Wouldn't that turn you off if you were in the 
position of this ex-offender?
    Mr. Eichenlaub. One of the things we try and encourage 
among our offenders is acceptance of personal responsibility 
for their conduct.
    Ms. Norton. Just a moment, sir. I pay because I live, well, 
that is where I pay my mortgage. I pay rent because I live 
there. Now, how does it increase the personal responsibility of 
the inmate to pay for what he is not receiving?
    Mr. Eichenlaub. We believe they are demonstrating personal 
responsibility and accepting responsibility by paying a minimal 
subsistence amount for their residence.
    Ms. Norton. Mr. Chairman, you indicated that we may need 
some, if we are not able to get the Bureau of Prisons to give 
us a better answer than that, then it may be that we need a 
statutory change here. The notion of making an inmate pay for 
what he does not receive runs counter to personal 
responsibility. That is exactly what the inmate was doing 
before. He was taking what he wasn't supposed to take for what 
he wasn't receiving. If it makes me angry, I can't imagine what 
people who have anger problems must feel when they say, you 
don't live here, you don't eat here and you are going to pay 
anyway.
    All I can ask you to do is this, I understand that you are 
not the Director of the Bureau of Prisons. I will be writing 
the Bureau of Prisons. The chairman has already indicated that 
we will be doing followup. But I ask you to review this policy, 
so that if anything can encourage families to take over the 
subsistence responsibility, and if I can say so, Mr. 
Eichenlaub, so that we can save the taxpayers of the United 
States some of the funds. After all, CSOSA will continue to 
have jurisdiction, because this person is on supervised 
release.
    So I find it hard to understand, given all we know about 
modern penology, how this requirement does anything but run 
counter to all we understand about modern penology. So I ask 
you, are you willing to review this policy?
    Mr. Eichenlaub. I respect your opinion. We will take a look 
at it.
    Ms. Norton. Thank you, sir.
    Mr. Lynch. Thank you.
    I have to confess, I do struggle with the concept that 
someone might serve their sentence, submit to a halfway house 
and complete that program, and then return home and yet still 
pay into a system that they have already completed. I am not 
sure with just this exchange that I understand the whole 
situation.
    So I would ask you, Mr. Eichenlaub, Ms. Poteat, Mr. Varone 
and Mr. White, if I could get a sense of your own personal view 
of this and what is required. It does seem counter-intuitive at 
this level. But again, we haven't really drilled down much on 
the issue. I would like to find out what the policy is that we 
are following there, and whether or not this is an anomaly in 
Mr. White's case, or if this is something that happens across 
the board with all of our inmates and those who are trying to 
gain reentry. I just don't understand enough about it.
    And we have a call for votes.
    The other piece I want to say in conclusion is that I 
understand the statement that there are no hard and fast 
standards that we apply to each individual. But you also say 
that we take each case, each person on a case by case basis. 
But there needs to be standards applied on a case by case 
basis, I would imagine. It can't be simply random and thinking 
up new standards every time a new person is assessed. So I 
think it would be helpful in tracking and identifying best 
practices if you said, OK, this is a group that we look at and 
we think they are most suitable for halfway houses. Then here 
are some groups that we identify that would be poor choices for 
that system.
    And then we would be able to get data from that and figure 
out, what are the best practices. I think it would help our 
friends who are operating these halfway houses to know what 
type of analysis has been made prior to the person showing up 
on their doorstep. It might help us in the future. I just think 
that it introduces a little bit of accountability. It is not 
perfect, it is not rocket science, either. But it may help us 
in serving the people that we are trying to serve, and it may 
use the taxpayer money in a more efficient manner, which is 
always desirable.
    We have had a very good exchange here. I think this panel 
has suffered enough from the questions of the committee. I 
would assure you that all of your testimony has been entered 
into the record, with the exception of what I have asked you to 
supply in the coming, let's say, 2 weeks I would like to have 
some of that information regarding the payments that Mr. White 
has asserted that he is making for no services after departure.
    I want to thank you for your willingness to come before 
this committee. I want to thank you all for your good work. 
This is a tough, tough area. You are doing God's work out 
there, trying to help folks. And we appreciate that. With that, 
this hearing is adjourned. Thank you.
    [Whereupon, at 11:57 a.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
